IN THE SUPREME COURT OF THE UNITED STATES
No. 20-1143
DENISE A. BADGEROW, PETITIONER
v.
GREG WALTERS, ET AL.
CERTIFICATE OF SERVICE

I, Daniel L. Geyser, counsel for petitioner and a member of
the Bar of this Court, certify that, on July 22, 2021, three copies
of the Brief for the Petitioner in the above-captioned case were
sent, by third-party commercial carrier for overnight delivery and
by electronic mail, to the following counsel:
Lisa S. Blatt
Williams & Connolly LLP
725 Twelfth Street, N.W.
Washington, DC 20005
(202) 434-5050
lblatt@wc.com
I further certify that all parties required to be served have
been served.
Daniel L. Geyser

